COCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegaIbriefs.com

>^^^^Legal Briefs
Est. 1923

1-800-225-6964
(402)342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.
REED MCDONALD,
Petitioner,
vs.
EAGLE COUNTY, et al., a quasimunicipal corporation
and political subdivision of the State of Colorado,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5239 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of October, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5,2023
Notary Public

f/

Affiant

40087

